:

't.-i

/•••

tonal'*6 ■“

Officer of
NO
IN THE

SUPREME-COURT OF THE UNITED STATES
On Petition for a Writ of Certiorari to the

Illinois APPELLATE Court

A

■*
:i

/

v.

Supreme- Cour, U.6.
ri.ed

DEBBIE PITTMAN,
Petitioner,
'

)
)

v.

JUN 2 7 2020
OFFICE Or 1 rlc CLERK

RONNIE PITTMAN,
Respondent/.

)
)

PETITION FOR A WRIT OF CERTIORARI

. Debbie Pittman, pro se
P C. Box 64334

/
/

Chicago II60634

■

dcbblepittmari99@Qmail.com

J

312-218-7528
June 26, 2020

i

■i

received
m 1 3 2020

JgUcSIgll
H '

QUESTIONS PRESENTED FOR REVIEW

1. Whether a notice of appeal filed on May 10, 2016 is considered prematurely filed
when the orders being challenged cover the
period between 2013 and 2017 is valid which was filed after the court made known its
intention ON April 13, 2016 of entering an unfavorable final rulings set to be entered on
June 10, 2016, and after a second notice of appeal was filed on December 18, 2017?
2. Whether charging a person with indirect civil contempt when it is actually indirect
criminal contempt and then sanctioning them $15,000 for that contempt and punishing
them further when they could not pay the fine violates the Due Process Clauses of the
Fifth, sixth, thirteenth and fourteenth Amendments, the Excessive Fines Clause of the
Eighth Amendment, and the Equal Protection Clause of the Fourteenth Amendment as
afforded under the constitution?

1

PARTIES TO THE PROCEEDING

Debbie Pittman, Petitioner

Ronnie Pittman, Respondent

CORPORATE DISCLOSURE STATEMENT
The petitioner does not have a parent corporation in relation to this case and no publicly held corporation
owns 10% or more of the petitioner’s stock, as noted in this corporate disclosure statement.

2

TABLE OF CONTENTS
Page
QUESTION PRESENTED FOR REVIEW

1

PARTIES TO THE PROCEEDINGS

2

TABLE OF AUTHORITIES

4

INTRODUCTION

5

OPINIONS BELOW

6

JURISDICTION

6

CONSTITUTIONAL PROVISIONS INVOLVED

6

STATEMENT OF THE CASE

7

REASONS FOR GRANTING THE PETITION

9

CONCLUSION

11

APPENDIX

16

APPENDIX A: OPINION, Illinois Appellate Court, First District (June 28, 2019)
A-l-30
APPENDIX B: Denial ORDER, Illinois Supreme Court (January 29, 2020)
B-l
APPENDIX B: Denial ORDER, Illinois Supreme Court (April 3, 2020)
B-2
APPENDIX C

ORDER, Illinois Circuit Court (Nov. 10, 2015)

APPENDIX C

ORDER., Illinois Circuit Court (December 2, 2015)

C-l
APPENDIX C
APPENDIX C
2016)............
APPENDIX C

C-5
CONTEMPT ORDER, Illinois Circuit Court (April 13, 2016)
C-8
CONTEMPT ORDER Contin., Illinois Circuit Court (April 13,
C-9
ORDERTO COM. Illinois Circuit Court (May 19, 2016)
C-10

3

TABLE OF AUTHORITIES
Alexander v. United States, 509 U.S. 544 (1993)... 12
Betts v. Brady 316 U.S. 455, 62 62 S. ct. 1256 ... 13.
Bruzzi v. Bruzzi 332 Pa. Super. 346 (1984); 481 A.2d 648;, ... 12
Cipolla v. Cipolla, 264 Pa.Super. 53-57, 398 A.2d at 1055 (1979) ... 10
Fox, 130 Ill App. 3d at 797;
14
Griggs v. Provident Consumer Discount Company, 459 U.S. 56, 103 S. Ct. 400, 74
L.Ed.2d 225 (1982). ... 9
Hoppv. Hopp 279 Minn. 170, 156N.W.2d212 (Minn. 1968) ... 9, 10
iohn G. Phillips & Assoc, v. Brown, 197 Ill. 2d 337 (2001) ... 9.
Leonard v. United States, 633 f.2d 599, 611 2d cir (1980) ... 9
Mathews v. Eldridge, 424 U.S. 319, 334 (1976)........................ 12,
Morrissey v. Brewer, 408 U.S. 471,481 (1972)
12
People v. Duenas 30 Cal. app. 5th 1157, 242 Cal.RPTR.3d 268 (Cal. App. 2019); ... 10
People v. Peterson, 2017 IL 120331
13
14.
People v. Queen, 56 Ill. 2d 560, 565, 310N.E.2d 166, 169 (1974)
preston v. Municipal court 1961 188 cal. app. 2d 76 87,88; 10 cal. RPTR. 301... 10
In Re Marriage of Pavlovich (2019) IL. App. (lst) 172859; 133 n.e. 3d 1 433 IL. Dec.
653 111. App. (2019) IL. APP. 1 (2019) ... 10, 12, 13
Philadelphia Marine Trade Association, et al. v. International
Longshoremen's Association Local Union No. 1291, et al., 392 Pa. 500, 140 A.2d 814
12
(1958)
Wright. V. Wright 61 Va. App. 432, 737 S.E.2d 519 (2013) (spousal support)
Swede v. Rochester Carpenter’s Pension Fund , 467 F.3d 216 223 2d cir (2006) ... 9
Timbsv. Indiana, 139 S. Ct. 682, 203, L.Ed.2d 11(2019).............
13
Turney v. Ohio, 273 U.S. 510, 523 (1927) ... 10
CONSTITUTION U.S.
Const, amend. V.........
..... 2,7,8, 10
U.S. Const, amend. VI
.....2, 7, 8, 10
passim U.S. Const, amend. VIII
...............7, 9,10,
U.S. Const, amend. XIII, § 1 .....
.......2, 7, 9, 10, 12
U.S. Const, amend. XIV, § I .............
2,7,9,10, 12** passim
STATUTES
28U.S.C. § 1257(a)........
1
715 f.2d 34 725 ILCS 5/110-5(a)
13
4, 13
725 ILCS 5/110-7(0..........
Illinois Constitution Article VI Section 6 Final orders, .... 9

rule
21.3 Indirect criminal contempt for the 14th judicial circuit of Illinois

13

Illinois Supreme Court Rule 341(a) (7)

4

INTRODUCTION

1. This case provides the Court with an ideal vehicle with which to address the
constitutionality of indirect criminal contempt charges imposed by courts under
the guise

of indirect civil contempt charges and the individuals are denied

their constitutional rights associated with those charges and the questionable level
of remaining impartiality to decision makers once an accommodation request has
been made by a higher authority for people with disabilities.

5

OPINIONS BELOW
2. The Illinois Court of Appeals opinion was recorded on June 28, 2019 and is found
at 2019 IL. APP. 1.(1*) 161316-U

3. The Illinois Supreme Court’s denial of leave to appeal was entered on January 29,
2020 and is found at 435 Ill. Dec. 673 at App. B-l-302.

JURISDICTION
1. After having granted an extention for filing the motion for leave to appeal, the
Illinois Supreme Court entered their judgment of The denial order of allowing the
motion for leave to appeal on January 29 2020 App. B1, and the denial order of
the motion to reconsider the motion for leave to appeal was entered on April 3,
2020 (App. B-2). This Court has jurisdiction under 28 U.S.C. § 1257(a).

CONSTITUTIONAL PROVISIONS INVOLVED
2. The Fifth Amendment to the Constitution provides in pertinent part that “[no
person shall... be deprived of life, liberty, or property, without due process of
law.”

3. The sixth Amendment to the Constitution provides that, “In all criminal
prosecutions, the accused shall enjoy the right to a speedy and public trial, by an
impartial jury of
4. the State and district wherein the crime shall have been committed, which district
shall have been previously ascertained by law, and to be informed of the nature
and

6

5. cause of the accusation; to be confronted with the witnesses against him; to have
compulsory process for obtaining witnesses in his favor, and to have the
Assistance of Counsel for his defence.”
6. The Eighth Amendment to the Constitution provides, “Excessive bail shall not
be required, nor excessive fines imposed, nor cruel and unusual punishments
inflicted.”
7. Section 1 of the Thirteenth Amendment to the Constitution provides,
“Neither slavery nor involuntary servitude, except as a punishment for crime
whereof the party shall have been duly convicted, shall exist within the United
States, or any place subject to their jurisdiction.”
8. Section 1 of the Fourteenth Amendment to the Constitution provides in
pertinent part, “Nor shall any State deprive any person of life, liberty, or property,
without due process of law; nor deny to any person within its jurisdiction the
equal protection of the laws.”

STATEMENT OF THE CASE

1. Petitioner Debbie Pittman filed for divorce in late 2012, after learning that her
husband of more than 30 years and who was the primary breadwinner of the
family, working for the Internal Revenue Service R. C2138, for 30 years,
abandoned her, after transferring his electronic check to his private account and
closing the joint bank account. Respondent Ronnie returned to the home three
months later in early 2013 and was violent and was made to leave the home by no

7

contact order, R. C161-C162. An order of protection and exclusive possession hearing
was held on May 21,2013 granting Debbie only exclusive possession, R. c 125126.
2. Because of the loss of respondent’s income in the home, petitioner DEBBIE went
from being upper middleclass to indigent and completed a form establishing her
impoverished state R. c225. Due to her impoverished state, she was unable to
keep an attorney. After losing her attorney because of inability to pay, she was
forced to make an accommodation request of a court reporter and transcripts
being made available to her through the disability accommodations officer
because she learned that the respondent’s attorney was taking advantage of her
blindness and changing wording in the orders. After the disability coordinator
received a negative response from the court to grant the accommodation request,
she then, without the petitioners knowledge, sought approval of the
accommodation request from Chief Judge Evans who granted it, which petitioner
learned of the next time she returned to court.
3. Out of desperation , petitioner DEBBIE took out what she thought was a loan
against a structured settlement which Respondent had signed away his rights via
notarized affidavit, (Brief app. A-28), to from a finance company J. T. Winters
which turned out to be a bogus company who defrauded her. Though the notary
Mr. Dina verified that Respondent Ronnie brought him the affidavit and Mr. Dina
verified his notarization and signature on the affidavit, the court determined the
affidavit signed by Mr. Dina and both parties in this case was invalid since
Respondent Ronnie claimed not to have signed it. Petitioner filed a claim with the

8

Attorney General’s office under claim no. 201600026144 and in the meantime
was found in civil contempt of court and sanctioned $15,000 for “spending
money” which she had been ordered not to do as per the November 10, 2015
order, R. C1382-C1385, and December 2, 2015 orders, R. C1504-C1506. Petitioner
objected to the sanction on May 10, 2016 to no avail and a commit ordered was
entered on May 19, 2016

when she was unable to pay the $15,000 sanction,

App. C-10.
4. Petitioner appealed, raising constitutional challenges under the Due Process
Clause, of the fifth amendment, the right to counsel clause under the sixth
amendment, the excessive fines clause under the eighth amendment, the
involuntary servitude clause under the thirteenth amendment and the Equal
Protection Clause of the fourteenth amendment. The Illinois Appellate Court
determined that the notice of appeal was untimely, and none
of the orders between May 21,2013 and November 15, 2017 were final.
The constitutional challenges centered around the April 13, 2016 contempt
decision was rejected and it was deemed proper and neither of the other
approximately 18 points including the July 19, 2017 contempt order were not
addressed. Petitioner is requesting re-evaluation of the appellate court’s decision
with instructions to them to address all the points raised by petitioner in her brief, since
had she not raised those points according to Supreme Court Rule 341, they would have been
considered waived, (h.) (appellant’s brief) (7.) “Points not argued are forfeited and
shall not be raised in the reply brief, in oral argument or on petition for
rehearing.”, Wright. V. Wright 61 Va. App. 432, 737 S.E.2d 519 (2013).

9

5. The Illinois Supreme Court denied leave to appeal, leaving the lower court’s
published opinion as the State’s final adjudication of these issues. App. A-l-30.
This timely petition for certiorari follows.
REASONS FOR GRANTING THE PETITION
1.

IN ERROR, THE APPELLATE COURT’S OPINION PROCEEDS FROM THE IDEA THAT none of THE
ORDERS written in a four year period WERE FINAL ORDERS AND THEREFORE THE NOTICE OF
APPEAL FILED MAY 10, 2016 AND AMENDED NOTICE OF APPEAL FILED MAY 19, 2016 WERE NOT

TIMELY. Illinois SUPREME COURT RULE 303 states, "(A NOTICE OF APPEAL FILED
AFTER THE COURT ANNOUNCES A DECISION, BUT BEFORE THE ENTRY OF THE
JUDGMENT OR ORDER, IS TREATED AS FILED ON THE DATE OF AND AFTER THE
ENTRY OF THE JUDGMENT OR ORDER.)" John G. Phillips & Assoc, v. Brown, 197 III.
2d 337 (2001), Illinois Constitution Article VI Section 6 Final orders, People V. Shinaul
Supreme Court of Illinois. February 17, 2017 IL 120162 88N.E.3d 760. The
petitioner filed a second notice of appeal on December 18, 2017. In addition, this
court has held that a prematurely filed notice of appeal is valid as long as the Appellee
is not harmed by the time the appellate court makes its decision, Swede v. Rochester
Carpenter's Pension Fund , 467 F.3d 216 223 2d cir (2006) "We have held that where
an appellant files a notice of appeal before final judgment is entered that premature
notice of appeal may ripen into a valid notice of appeal if a final judgment has been
entered by the time the appeal is heard and the appellee suffers no prejudice;
Leonard v. United States, 633 f.2d 599, 611 2d cir 1980 in the absence of prejudice to
the non-appealing party."; Griggs v. Provident C onsumer Discount Company, 459
U.S. 56, 103 S. Ct. 400, 74 L.Ed.2d 225 (1982). In addition, the petitioner filed a
second notice of appeal on December 18, 201 and it is under case number 173174,
which the appellate court separated from this case App. C (June 25 2019 order), after
they learned of the circuit court entering further orders, due to the actions of the
Respondent, prior to the appellate court's June 28, 2019 decision and prior to the
case being released back to the circuit court.

2. This domestic violence victim is found guilty of indirect civil contempt when it is
clearly criminal contempt when she is being punished for past actions as clearly
glaringly noted in the April 13, 2016 order R. C2141-2142 and May 19, 2016 order
R. C2175A hereto attached in Appendix C, which could not be undone and is
constitutionally impermissible under the fifth, sixth, eighth, thirteenth and
fourteenth amendments of the united States constitution which this individual who
is a citizen of the United states is supposed to be protected by the longstanding

10

due process and equal protection precepts under the 14th amendment clause. See
Turney v. Ohio, 273 U.S. 510, 523 (1927) (“it certainly violates the Fourteenth
Amendment and deprives a defendant in a criminal case of due process of law to
subject her liberty or property to the judgment of a court.” This violation of the
petitioner’s constitutional rights were further compounded when a $15,000
sanction was added as punishment for her alleged indirect civil contempt action
which was really indirect criminal contempt as noted in the April 13, 2016 order,
App. C-8-9, which constitutes as an excessive fine and violates the Eighth
Amendment’s Excessive Fines Clause which is confirmed in Alexander v. United
States, 509 U.S. 544 (1993) which “was properly limited to assets linked to
petitioner's past racketeering offenses. Id., at 835. Lastly, the Court of Appeals

concluded that the forfeiture order does not violate the Eighth Amendment's
prohibition against "cruel and unusual punishments" and "excessive fines." In so
ruling, however, the court did not consider whether the forfeiture in this case was
grossly disproportionate or excessive, believing that the Eighth Amendment "does
not require a proportionality review of any sentence less than life imprisonment
without the possibility of parole.'" Id., at 836 (quoting United States v. Pryba, 900 F,
2d 748, 757 (CA4), cert, denied,” The petitioner was not allowed to pay the sanction
out of accounts that had been frozen and she only lived off her social security
disability . There was no chance of parole for the petitioner once the May 19 2016
order was enforced, which is constitutionally impermissible. Petitioner was
unable to pay the $15,000 sanction and was held until it was paid by an outside
party, an officer of another court, thereby violating her Section 1 Thirteenth
Amendment constitutional Right of “involuntary servitude, except as a

11

3. punishment for crime whereof the party shall have been duly convicted, shall
exist within the United States, or any place subject to their jurisdiction.” In affect
punishing her for her impoverished state and inability to pay a debt imposed by
the court. With no possibility of parole thereby violating the Eighth Amendment
of the Constitution for cruel and unusual punishment as recognized in Betts v.
Brady 316 U.S. 455, 62 62 S. ct. 1256.
4. This court has the obligation of clarifying to the lower courts that regardless of
race, creed, color, sex, disability or financial standing the constitutional rights are
to be equally applied to all citizens of the United States, and accommodations are
to be made available to those people needing said accommodations where
necessary according to their disability without fear of reprocussions for having
made that accommodation request to achieve fair and equal impartial treatment
under the law. .
5. Next, punishing a person on a indirect contempt order that first of all was for past
actions and second of all, could not be complied with because it required her to be
penniless and “spend no money” is constitutionally impermissible and infringes
on the petitioner’s right to life since she cannot live without spending money. As
noted in the following case, “In determining whether contempt has occurred,
there must be a determination made as to whether or not if the order can be
complied with; Hopp v. Hopp 279 Minn. 170, 156N.W.2d 212 (Minn . 1968)
(“1. The only purpose of civil contempt proceedings in divorce cases is to secure
compliance with an order presumed to be reasonable. Punishment for past
misconduct is not involved.” In direct contrast criminal contempt is solely for the

12

purpose of punishment, rule 21.3 Indirect criminal contempt for the 14th judicial
circuit of Illinois. As noted in Bruzzi v. Bruzzi 332 Pa. Super. 346 (1984) “On
the other hand, criminal contempt is of a punitive character. In Cipolla v. Cipolla,
264 Pa.Super. 53, 398 A.2d 1053 (1979), defendant violated a Protection From
Abuse Act order. He was held to be in civil contempt; *353 however, on appeal
the court stated that “The sole motivation was the endeavor to punish [appellant]
for non-compliance.” The record and opinion of the court below shows that the
court was not inclined to fashion a remedial order ...." Cipolla v. Cipolla, supra,
264 Pa.Superior Ct. 57, 398 A.2d at 1055. A civil label is inappropriate when
the court is attempting to punish the contemnor for past acts of misbehavior
rather than setting forth the conditions of compliance to which the contemnor was
required to conform and conditioning punitive measures on failure to comply
therewith. Philadelphia Marine Trade Association, et al. v. International
Longshoremen's Association Local Union No. 1291, et al., 392 Pa. 500, 140 A.2d
814 (1958).” Even in In Re Marriage of Pavlovich (2019) IL. App. (lst) 172859;
133 n.e. 3d 1 433 IL. Dec. 653 Ill. App. (2019) IL. APP. 1 (2019), the court saw
fit to reverse the contempt claim given the similar circumstances as the
petitioner’s current case. “715 f.2d 34 “when it becomes obvious that sanctions
are not going to compel compliance they lose their remedial characteristics and
take on more of the nature of punishment.” As noted in the Pavlovich case.
6. The petitioner also was accused of not providing an accounting when in fact, she
provided the bank statements and was told, they didn’t count since she hadn’t
prepare them herself.” In any case, she was punished for past actions and

13

therefore it was indirect criminal contempt, not indirect civil contempt which is
constitutionally impermissible. Furthermore, the petitioner was not given a
hearing to determine if she was able to pay the $15,000, People v. Duenas 30 Cal.
app. 5th 1157, 242 CaI.RPTR.3d 268 (Cal. App. 2019). Petitioner was punished
strictly because of her poverty level on May 19, 2019; “It simply punishes her for
being poor;” People v. Duenas 30 Cal. app. 5th 1157, 242 Cal.RPTR.3d 268
(Cal. App. 2019); preston v. Municipal court 1961 188 cap app. 2d 76 87,88
10 cal RPTR 301. It is clearly clarified in Hopp v. Hopp 279 Minn. 170, 156
N.W.2d 212 (Minn . 1968); there is supposed to be a hearing to determine
whether the fine can be paid. The petitioner was not given such a hearing. The
Eighth Amendment protects citizens against such “proscriptions of cruel and
unusual punishment and excessive bail the protection against excessive fines
guards against abuses of governments punitive or criminal law enforcement
authority”; Timbs v. Indiana, 139 S. Ct. 682, 203, L.Ed.2d 11(2019).
7. Worst case scenario, if the petitioner was guilty, the punishment was to the
extreme for the alleged crime committed, “The abuse-of-discretion standard of
review is highly deferential. People v. Peterson, 2017 IL 120331, f 125. A
reviewing court will reverse only when “the trial court’s decision is arbitrary,
fanciful, or unreasonable to the degree that no reasonable person would agree
with it.” (Internal quotation marks omitted.) Id. However, a trial court errs i it fails
to understand it has discretion to act or wholly fails to exercise its discretion. Fox,
130 Ill App. 3d at 797; People v. Queen, 56 Ill. 2d 560, 565, 310N.E.2d 166, 169
(1974).

14

8. The indirect criminal contempt punishment is just one such decision made in this
case which is of an extreme nature since the accommodation request was granted
and each decision in some form unfavorable to the petitioner in direct contrast to
the Eighth Amendment of the constitution.
9. The writ of certiorari is warranted To demonstrate that granting an
accommodation request to a person with a disability does not lessen the
entitlement to fair and impartial decisions within our justice system. Because
Even people with disabilities who make an accommodation request and receive it
regardless of race, creed, religion, physical or mental challenges and economic
standing are still entitled to the exact same rights, privileges, and protections
afforded other citizens of the United States Constitution. This Court explained in
Mathews v. Eldridge, 424 U.S. 319, 334 (1976), that due process is a “flexible”
doctrine “call[ing] for such procedural protections as the particular situation
demands.” (citing Morrissey v. Brewer, 408 U.S. 471,481 (1972)).
10. To resolve whether sufficient process has been provided, the courts must weigh:
(1) the private interest affected; (2) “the risk of an erroneous deprivation of such
interest through the procedures used, and the probable value, if any, of additional
or substitute procedural safeguards”; and (3) the government’s interest. Mathews,
424 U.S. at 335 (citation
11. Finally, according to Mathews v. Eldridge, 424 U.S. 319, 334 (1976), our judicial
system is supposed to have the flexibility to meet the legal needs of all its citizens,
including people with disabilities, to ensure liberty, and justice for all, thereby
demonstrating that justice is equally attainable within our judicial system through

15

the accommodations necessary to even the legal playing field for those that are
significantly more challenged than others, without fear of retribution for making
those accommodation requests.
CONCLUSION

7.

to

M

Debbie Pittman, pro se
Debbienittman99@gmail.com

16

